<html>
<title> - THE STATE OF THE RIGHT TO VOTE AFTER THE 2012 ELECTION</title>
<body><pre>[Senate Hearing 112-794]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-794

 
         THE STATE OF THE RIGHT TO VOTE AFTER THE 2012 ELECTION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 19, 2012

                               __________

                          Serial No. J-112-96

                               __________

         Printed for the use of the Committee on the Judiciary


                  U.S. GOVERNMENT PRINTING OFFICE
81-713                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware.......................................................     6
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     4
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   178
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     5

                               WITNESSES

Bennett, Ken, Secretary of State of Arizona, Phoenix, Arizona....    15
Crist, Charles, Jr., Former Governor of Florida, St. Petersburg, 
  Florida........................................................     9
Cobb-Hunter, Hon. Gilda, House of Representatives from the State 
  of South Carolina, Columbia, South Carolina....................    13
Nelson, Hon. Bill, a U.S. Senator from the State of Florida......     7
Perales, Nina, Vice President of Litigation, Mexican American 
  Legal Defense and Educational Fund (MALDEF), San Antonio, Texas    17
Schultz, Matt, Secretary of State of Iowa, Des Moines, Iowa......    11

                         QUESTIONS AND ANSWERS

Responses of Nina Perales to questions submitted by Senator 
  Klobuchar......................................................    31

                       SUBMISSIONS FOR THE RECORD

Asian American Justice Center, Mee Moua, President and Executive 
  Director, Washington, DC, statement............................    38
African American Ministers Leadership Council (AAMLC), Minister 
  Leslie Watson Malachi, Director, December 19, 2012, letter.....    45
American Civil Liberties Union (ACLU), Laura W. Murphy, Director, 
  Deborah J. Vagins, Senior Legislative Counsel, Demelza Baer, 
  Policy Counsel, Washington, DC, joint statement................    48
Advancement Project, Judith A. Browne Dianis, Co-Director, 
  Washington, DC, statement......................................    71
Arizona Advocacy Network, Phoenix, Arizona, statement............    81
Bennett, Ken, Secretary of State of Arizona, Phoenix, Arizona, 
  statement and attachments......................................    84
Bus Project Foundation, Caitlin Baggott, Executive Director, 
  Portland Oregon, December 26, 2012, letter.....................    90
Center for American Progress, Scott Keyes, Washington, DC, 
  December 18, 2012, letter......................................    94
Cobb-Hunter, Hon. Gilda, House of Representatives from the State 
  of South Carolina, Columbia, South Carolina, statement.........   106
Common Cause, Jenny Rose Flanagan, Director of Voting & 
  Elections, Washington, DC, statement...........................   116
Crist, Charles, Jr., Former Governor of Florida, St. Petersburg, 
  Florida, statement.............................................   126
Demons Ideas & Action, Tova Andrea Wang, Senior Democracy Fellow, 
  New York, New York, statement..................................   131
Detzner, Kenneth W., Secretary of State, Florida Department of 
  State, Tallahasee, Florida, statement..........................   150
Forward Montana Foundation (FMF), Andrea Marcoccio, Executive 
  Director, Missoula, Montana, December 26, 2012, letter.........   153
House, Tanya Clay, Public Policy Director, Lawyers Committee for 
  Civil Rights Under Law, Washington, DC, statement..............   156
Henderson, Wade, President & CEO, Leadership Conference on Civil 
  and Human Rights, Washington, DC, statement....................   173
Nelson, Hon. Bill, a U.S. Senator from the State of Florida, 
  statement......................................................   181
National Action Network (NAN), Rev. Al Sharpton, President and 
  Founder, Re. W. Franklyn Richardson, Chairman, and Tamika 
  Mallory, National Executive Director, Washington, DC, joint 
  statement......................................................   186
National Association of Social Workers (NASW), Elizabeth J. 
  Clark, PhD, ACSW, MPH, Chief Executive Officer, Washington, DC, 
  statement......................................................   189
Palm Beach Post, Sunday October 28, 2012, article................   197
Perales, Nina, Vice President of Litigation, Mexican American 
  Legal Defense and Educational Fund (MALDEF), San Antonio, 
  Texas, statement...............................................   202
Schultz, Matt, Secretary of State of Iowa, Des Moines, Iowa, 
  statement......................................................   213

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government or 
  other criteria determined by the Committee, list:

Nelson, Hon. Bill, a U.S. Senator from the State of Florida, 
  Mitchell Depo, http://www.billnelson.senate.gov/supporting/
  mitchelldepo.pdf


         THE STATE OF THE RIGHT TO VOTE AFTER THE 2012 ELECTION

                              ----------                              


                      WEDNESDAY, DECEMBER 19, 2012

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Durbin, Whitehouse, Coons, 
Grassley, and Lee.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. I am told that Senator Grassley is on his 
way, and I am going to start and, of course, yield to him when 
he comes.
    Our Nation has grown stronger since its founding as more 
Americans have been able to exercise their right to vote. The 
actions taken by previous generations--through a Civil War, 
through constitutional amendments--in fact, Senator Grassley is 
here--and through the long struggles of the civil rights 
movement--have worked to break down barriers that stood in the 
way of all Americans participating in our democracy. Yet as we 
saw in last month's election, our work is far from done. 
Barriers to voting continue to exist and evolve.
    In my State of Vermont, where we have the town meeting with 
open participation, democracy, Vermonters cannot understand why 
there is this barrier to voting.
    You know, the right to vote and to have your vote count is 
a foundational right because it secures the effectiveness of 
the other protections of the law and the Constitution. Before 
the election, we held a hearing that focused on new barriers to 
the right to vote, building on the work done in field hearings 
held by Senator Durbin in Florida and Ohio. We heard testimony 
about the renewed effort in many States to deny millions of 
Americans access to the ballot box through voter purges and 
voter identification laws. I was concerned that these barriers 
would stand between millions of Americans and the ballot box.
    What we saw during the election shows that we were right to 
be concerned. Purges of voter rolls, restrictions on voter 
registration, and limitations on early voting--which in 
previous elections enabled millions to vote--led to unnecessary 
and avoidable problems on election day.
    You had onerous and confusing voter identification 
requirements, complications in places like Pennsylvania, 
Arizona, Texas, and South Carolina. And throughout the country, 
misleading political advertising and robocalls worked to sow 
confusion and suppress the vote.
    Just because millions of Americans successfully overcame 
abusive practices in order to cast their ballot does not make 
these practices right. It does not justify the burdens that 
prevented millions more from being able to vote. Barriers that 
remind us of a time when discriminatory practices such as poll 
taxes, literacy tests, and grandfather clauses were commonplace 
have no place in 21st century America. Barriers that seem to 
fall heaviest on African Americans, Hispanics, military 
veterans, college students, the poor, and senior citizens risk 
undermining our Constitution's core values.
    The Constitution is for all of us. Ensuring that all 
Americans are able to vote and have their vote counted should 
be an issue of concern to Democrats and Republicans. It should 
be a matter of conscience for all of us regardless of what 
political party we belong to. That is how it was 6 years ago 
when Members of Congress, Republicans and Democrats, stood 
together on the Capitol steps to reaffirm our commitment to 
full democratic participation when we reauthorized the key 
provisions of the Voting Rights Act of 1965.
    Our work in 2006 to reinvigorate and reauthorize the Voting 
Rights Act stood in stark contrast to the tremendous resistance 
and bitter politics which met the initial enactment of that 
landmark law. And the Committee played a key role. After nearly 
20 hearings in this Committee and the House Judiciary 
Committee, we found that Section 5 of the Voting Rights Act 
continues to be an effective and necessary tool for protecting 
voting rights against modern-day barriers to voting. The 
legislation contained specific findings about the need for 
reauthorization and concluded that without reauthorization the 
gains we have made would be undermined. Our efforts reached 
completion when President Bush signed the bill into law after a 
unanimous vote in the Senate and nearly unanimous vote in the 
House.
    The Supreme Court got it right three years ago when it 
upheld a challenge to the constitutional authority of Congress 
to reauthorize Section 5. Next year, the Supreme Court is going 
to have a similar challenge. Neither the words of the 
Constitution nor the importance of these critical provisions 
for protecting the right to vote has changed in the last three 
years. Under the specific words of the 14th and 15th 
Amendments, Congress has the power to remedy discrimination and 
enforce these Amendments by enacting laws that address racial 
discrimination in connection with voting. We did that virtually 
unanimously six years ago.
    The Voting Rights Act transformed America by ushering the 
Nation out of a history of discrimination into an era of 
greater inclusion. So we cannot turn away from our commitment 
to the right to vote for all Americans, every single American, 
Republican, Democrat, Independent, no matter who they are.
    I thank the witnesses for being here, and I am going to 
turn to Senator Grassley, but I do want to mention again what a 
great service Senator Durbin did in holding these field 
hearings. They were extremely important. And I know Senator 
Nelson was there in Florida and is here today.
    Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you, Mr. Chairman, and also to all 
of our witnesses. This is a very important hearing because 
voting is a vital part of citizenship and a right of 
citizenship. It seems to me today that in any election or in 
any discussion of voting rights, the term ``suppression'' on 
the one hand or ``disenfranchisement'' on the other are thrown 
about, sometimes in a cavalier fashion. That approach is not 
helpful to protecting voting rights.
    The history of voting in this country was expanded with 
great effort and sometimes with great bloodshed. Those who 
oppose expanding the franchise to our fellow citizens sometimes 
use force and trickery. Comparing common-sense voter ID 
requirements, which enjoys the support of three-fourths of the 
electorate and even a majority of the Democrats, to poll taxes 
or worse trivializes the sufferings of millions of Americans 
who were denied the right to vote.
    We also hear that voting should be expanded in any way 
possible and the fewer the restrictions on voting the better. 
We should never trivialize efforts to expand the voter rolls, 
but we should make sure that those people that get on the voter 
rolls are entitled to be there.
    But fraud does exist. It is a fact of life. And it will be 
discussed at this hearing, and it will get worse if the only 
response is denial.
    The States are as justified in taking measures to deter 
potential fraud as to prosecute actual fraud. Earlier this 
year, the Pew Center on the States issued a report that found 
that there are 24 million voter registrations in this country 
that are no longer valid or are inaccurate. Who can justify 
that? It concluded that there are almost 3 million individuals 
who are registered to vote in multiple States. Who can justify 
that? Tens of thousands are registered to vote in three or more 
States. Who can justify that?
    The study also identified close to two million dead people 
on the voter rolls. Who can justify that? NBC News found 25,000 
names of likely deceased voters on California rolls. Who can 
justify that? Some voted years after they died. One woman who 
died in 2004 voted in 2008 and 2012. Who can justify that? A 
man who died in 2001 has voted eight times since 2005. Who can 
justify that?
    The New York Times recently wrote that, ``In Florida, 
absentee ballot scandals seem to arrive like clockwork.''
    I am pleased that two Secretaries of State are with us 
today. I welcome Iowa's Secretary of State, Matt Schultz. State 
election officials are well versed on the procedures that are 
needed to run fair elections. Conscientious State officials, 
such as my Secretary of State, have sought to remove non-
citizens from the voter rolls. Federal officials did not assist 
them in ensuring that legal votes are not diluted by the 
counting of votes from ineligible voters. In fact, the 
Department of Homeland Security did all it could to prevent 
maintaining the integrity of voting rolls.
    We will hear that turnout rises when ballot integrity is 
fostered. States have a fair amount of discretion in how they 
choose to run elections. Early voting has grown in popularity, 
but there is a cost even beyond the lack of a common civic 
engagement on election day.
    I look forward to this hearing and hope that we get answers 
to these questions. But circumstances could change or new 
arguments or deliberations could lead someone to later wish to 
have voted differently. That is one of the issues with early 
voting. There should not be a one-way ratchet in which States 
that experiment with loosening voting rules can never try 
another approach. Of course, apparently neutral voting changes 
can hide bad motives.
    I voted to reauthorize the Voting Rights Act. In fact, I 
remember as a new member of this Committee in 1981 when the 
reauthorization was up, I think for the first time, I went to 
Senator Biden and said, ``I would like to help you.'' He 
probably said he wanted help. But at the time, you know, 
Republicans had just taken over the Senate. Everybody thought 
we were not going to reauthorize it. And Senator Biden said----
    Chairman Leahy. You were a stalwart.
    Senator Grassley. OK. I want to finish this story.
    [Laughter.]
    Senator Grassley. I do not think he believed me, but four 
or five months later, as the bill was going through the Senate, 
he says, ``You know, you were true in your wanting to help us 
reauthorize this,'' because voting is the basis of our 
representative system of Government and ought to be preserved 
for all people. But nobody's vote should be diluted by people 
that are not eligible to vote voting.
    I yield the floor.
    Chairman Leahy. Well, thank you very much, and you were a 
stalwart then, and, again, one of the reasons why Senator 
Grassley and I have been such good friends all these years.
    I have to go to the floor to manage an appropriations bill. 
I am also on the Appropriations Committee. And Senator Durbin 
has agreed to take over the hearing, and we are going to have 
statements for the record from Senator Warner on voting 
problems in Virginia and also from other organizations. Those 
will be placed as part of the record.
    [The information referred to appears as a submission for 
the record.]
    Chairman Leahy. Senator Durbin has been such a stalwart on 
this, and I wonder, Senator Durbin, if you would take my place 
here in the chair. And, Senator Grassley, thank you as always.
    Senator Durbin. I think you are a stalwart, too, Senator 
Grassley.
    [Laughter.]

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you all for being here, and I am just 
going to make a brief opening statement and invite my 
colleagues if they would like to do the same.
    I see Senator Nelson here, and I can recall going to Tampa, 
Florida, with Senator Nelson with a hearing of our Subcommittee 
on the Constitution and Civil Rights. And if you will recall, 
the first panel of experts that we had from your home State of 
Florida were election officials, Democrats and Republicans. And 
the first question I asked them was: What was the evidence of 
voter fraud and vote abuse that you believe led to these 
changes in the law restricting opportunities to vote in 
Florida? And they said there were none. There were none. And I 
asked them if there were prosecutions of voter fraud in Florida 
that caused a scandal that led to this, and they said, no, 
there were not. It turns out there were almost none when it 
came to actually prosecutions.
    I did the same thing in Ohio with Senator Brown in 
Cleveland, the same witnesses of Ohio election officials, same 
questions, same answers. And this is what I have concluded. It 
has come down to this: Elections in America are supposed to be 
about a contest between candidates with voters making the 
ultimate judgment. Instead, in too many States, elections have 
become contests between voters and special interest groups like 
ALEC which are hellbent on limiting the right of Americans to 
vote. And look what happened during this last election, things 
that I think need to be changed and are embarrassing to us.
    How can we be satisfied when our fellow citizens stand in 
line for seven hours to vote until 2:30 in the morning? Does it 
make sense for State legislatures to reduce early voting 
opportunities and the flexibility many working Americans need 
to exercise their right to vote? How can we watch laws being 
passed in legislatures requiring identification which the 
legislators know full well that hundreds of thousands of people 
will never be able to obtain in time to vote? Shouldn't we be 
disappointed by the increasing number of provisional ballots 
issued and the fact that a disproportionate number of those 
provisional ballots were given to minority voters in the United 
States of America? Is it really necessary to threaten high 
school teachers with criminal conviction and thousand dollar 
fines just for offering to help students register to vote?
    That was the reality of this election cycle. That is the 
challenge to us. I know there are many other things I can speak 
to, but I do believe we have got to be honest in this coming 
Congress. I believe that when it comes to Federal elections, we 
have a Federal responsibility to make sure that qualified 
voters do not have obstacles thrown in their paths. And to 
those who will, I hope you took a lesson from November 6th. 
There were people who stood there for seven hours to defy you, 
to tell you that every obstacle you threw in their path was 
another challenge for them to stand and vote and be counted, 
whatever the time, whatever the cost. Thank goodness they did. 
It was a reaffirmation of who we are as Americans.
    Senator Whitehouse.

 STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. I will just speak 
very briefly. I am delighted that we are having this hearing. 
The right to vote is perhaps the basic American right. It is 
the anchor of our democracy, and, unfortunately I believe it is 
being challenged. I think the modern-day Republican Party has a 
problem, which is that most of the goals of the party are ones 
that Americans do not support. And so they have to resort to 
strategies to try to push their agenda that allow them to get 
around the problem that most Americans do not support the 
radical Tea Party agenda. Those include using hostage theory-
type negotiating tactics in the legislature. We saw that with 
the debt limit. We are seeing it right now with the fiscal 
cliff. ``Unless you give us things that the American public 
does not want, we are going to do something worse to the 
country'' is fundamentally the threat there. And we have seen 
it with voter suppression. We have seen it over and over with 
voter suppression, election after election with voter 
suppression. And I have the greatest respect and admiration for 
the Ranking Member, but I do think that ``voter suppression'' 
is actually the appropriate term to use.
    As a former prosecutor, we sometimes look at the question 
of motive when you are looking at--it is only one element, but 
you do look at motive, and the motive, I think, has long been 
established by the Republican Party in the voter caging cases 
in which they have actually been put under court order to stop, 
cease and desist the practice of trying to clear voters off the 
rolls through voter caging efforts directed at particularly 
minority communities.
    So I think this is a very live issue. I think it is a very 
important issue. It is vital to our democracy, and I am 
delighted that we are having this hearing where not only my 
view but the distinguished Ranking Member's views and others' 
can all be ventilated here.
    Senator Durbin. Senator Coons.

 STATEMENT OF HON. CHRISTOPHER COONS, A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Coons. Thank you, Senator Durbin. Thank you for the 
opportunity to join you in this important hearing today.
    Like all of us, I watched the outcome on the night of the 
election and then for days afterwards with a sinking heart and 
with a growing concern. As someone who treasures the right to 
vote and who believes, as I know all of us do, Republican and 
Democrat, that it is one of the most fundamental civil rights 
in the United States, what we have seen is the steady whittling 
away of the opportunity to actually exercise that right in 
meaningful ways. In the last election and after the last 
several elections, this is of grave concern to me.
    Now, there are number of bills that have been introduced. I 
am a sponsor of one. A number of you are cosponsors, Senator 
Gillibrand, Senator Boxer; there are a number of others. Some 
seek, as mine does, to inspire a competition between States in 
partnership with the Federal Government to improve timeliness, 
access, accuracy. Others mandate a Federal standard. I look 
forward to hearing from this range of witnesses today about the 
real impact on the ground, its impact on access to the ballot, 
its impact on outcomes, and the questions that it raises in my 
view about the Voting Rights Act. We do not yet know the 
Supreme Court's path, but I think regardless of what happens in 
the upcoming Supreme Court case, this Committee, this Congress, 
has a duty, in my view, to reauthorize, to strengthen, and 
extend the Voting Rights Act in a way that takes into account 
the very real concerns about voting and accessing the right to 
vote in this country that this most recent election brought 
forward.
    Thank you.
    Senator Durbin. Thanks, Senator Coons.
    We welcome our colleague, Senator Bill Nelson. Bill has 
just gone through an election contest in a State where this was 
an issue, and, Bill, please submit your testimony and give us a 
few words here to start our hearing.

STATEMENT OF HON. BILL NELSON, A UNITED STATES SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Nelson. Mr. Chairman, thank you for your 
leadership. Thank you for coming to Florida so that you could 
receive direct testimony. You did that early in this year, and 
we have just closed a very ugly chapter in Florida political 
history, a chapter that occurred over the last 2 years, of an 
attempt to suppress the rights of voters, to suppress that 
vote, and I want to bring you some proof today.
    First of all, I would like to submit my written statement 
for the record. I would like to submit for the record a summary 
of what I am about to say that came in the Palm Beach Post in 
their Sunday, October 28, 2012, article, an investigative 
piece. And, third, I would like to submit for the record the 
deposition of an Emmett Mitchell IV, serving as the general 
counsel for the Florida Republican Party, when he gave a 
deposition in the case styled State of Florida v. United States 
of America, a deposition that was given earlier this year, when 
the State of Florida sued the U.S. Government for court 
determination of the preclearance under the Voting Rights Act 
of 1965, preclearance of five counties for discrimination; and, 
further, sued the U.S. Government by questioning the 
constitutionality of the 1965 Voting Rights Act.
    In the discovery for that case, the testimony was taken of 
this former general counsel of the Florida Republican Party, 
and what I would like you to know is this key individual who--
with your permission, with the Committee's permission, I would 
like to insert those documents in the record.
    In his testimony, given in April, Mr. Mitchell said--and it 
is in the sworn testimony--that he was asked to draft the 
original version of the legislation that became law. He was 
asked to draft it by Republican Party leaders specifically 
after consultations with Andy Palmer, then the executive 
director of the Florida GOP; Frank Terrafirma, head of the GOP 
State House campaigns; and Joel Springer, head of the State 
Senator Republican campaigns; and in early talks with executive 
director of the Florida GOP. And with this full testimony, you 
will see that there was a deliberate effort to change the 
election law of Florida in order to do a number of things.
    Now, it was not the first time that Mr. Mitchell's name has 
surfaced with voting-related controversy, because back in the 
infamous 2000 election, when there was the State of Florida's 
efforts to purge possible felons from the voter rolls, and that 
effort led to thousands of eligible voters being turned away at 
the polls during that Presidential election year because their 
names were removed from the rolls, I said thousands of eligible 
voters who were purged.
    This latest election law was introduced and passed in spite 
of the vehement opposition of the elections officials in the 
counties that conduct the elections, the supervisors of 
election. They collectively, through their State association 
and a wide array of other groups, had vehement opposition to 
the proposed bill that became law, reducing the number of early 
voting days from 14 to 8, which very conveniently eliminated 
the Sunday voting before the Tuesday election, which Professor 
Dan Smith from the University of Florida testified at your 
hearing in Tampa, in fact, that his investigation, his 
university investigation, found that there were two particular 
groups that utilized in the history of Florida early voting 
over the previous decade Sundays as the time that they voted: 
one was African Americans, and the other was Hispanics. That 
was one thing the legislation did.
    The law also made voting harder for people who had moved 
from one county to another and had a different address, because 
when they showed up to their new voter registration, if they 
did not have in their documentation, such as their driver's 
license, which likely they had not updated from their old 
address, if it was a different county, they were not allowed a 
ballot. They were given a provisional ballot, and we know from 
the 2008 election of the provisional ballots cast, one-half of 
them in 2008 were thrown out.
    Now, as a result of the new voter suppression law--you have 
already stated it, Mr. Chairman--long lines, an avalanche of 
provisional ballots, court challenges, all of it has come to 
pass. You are going to have to draw your own conclusions, Mr. 
Chairman and this Committee, but it is pretty straightforward 
for the senior Senator from Florida. Florida's 2011 election 
law changes were politically motivated by the documents that I 
submit, and they were clearly designed to disenfranchise likely 
Democratic voters and not, as the Republican sponsors in the 
legislature contended, to prevent voter fraud. You will see in 
the documentation where Mr. Mitchell, when asked directly, ``Do 
you think that voter fraud is a problem? '' he says no. When 
asked, on voter registration that eliminated organizations like 
the League of Women Voters for a year and a half to stop their 
registration of voters because it changed the previous law from 
10 days to turn in the names to 48 hours, which also added a 
huge fine for the person collecting the signatures if they did 
not get it in in 48 hours--by the way, 48 hours included 
Saturdays and Sundays. And when asked in this deposition, 
``Did, in fact, you think that 48 hours was long enough? '' he 
says no. He felt comfortable with the 10 days.
    And so, Mr. Chairman, I thank you for the opportunity that 
I can bring this documentation to you, setting the stage for 
testimony that will follow me by the panel. And do not forget 
that what I am telling you about that happened in Florida took 
place against a backdrop of a broader Republican-led campaign 
to restrict voting in at least a dozen States. And those were 
States that were controlled by the Republicans, and they 
approved new obstacles to voting as part of a campaign that was 
linked to the American Legislative Exchange Council, ALEC, 
which receives substantial funding from the Koch brothers.
    And so, Mr. Chairman, I conclude by saying that singling 
out Americans, stopping those or trying to stop those, as they 
failed in Florida because of the seven hours that they stood in 
line that you already noted, and trying to stop them from going 
to the polls, this is against the American way. It is against 
one of our most precious rights, and it is against what is 
guaranteed to us by the Constitution of the United States.
    Mr. Chairman, I thank you for the privilege of being here.
    [The prepared statement of Senator Nelson appears as a 
submission for the record.]
    Senator Durbin. Thank you, Senator Nelson. The documents 
you have referred to will be made part of the record. We 
appreciate your testimony and your continuing interest in this 
issue.
    [The documents appear as a submission for the record.]
    Senator Durbin. I now would like to call the first panel of 
witnesses, if they would please come forward and stand for the 
oath, the traditional, customary oath that is administered in 
these hearings before the Judiciary Committee. Please raise 
your right hand. Do you affirm that the testimony you are about 
to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Crist. Yes.
    Mr. Schultz. Yes.
    Ms. Cobb-Hunter. Yes.
    Mr. Bennett. Yes.
    Ms. Perales. Yes.
    Senator Durbin. Thank you. Let the record reflect that the 
witnesses all answered in the affirmative, and I am going to 
start with Governor Charlie Crist. He served as Governor of the 
State of Florida from 2007 to 2011. Under Governor Crist's 
leadership, Florida passed a number of laws relating to voting, 
and clearly Florida has been front and center as the beginning 
of our discussion in this Committee today. We welcome your 
testimony. Your entire written statement and any documentation 
you would like to submit will be made part of the record, 
without objection. So please proceed, Governor.

STATEMENT OF THE HONORABLE CHARLES CRIST, JR., FORMER GOVERNOR 
              OF FLORIDA, ST. PETERSBURG, FLORIDA

    Mr. Crist. Great. Thank you very much, Mr. Chairman, 
Ranking Member Grassley, and thank you, members of the 
Judiciary Committee, for inviting me to testify today on what 
is the most fundamental of rights for our fellow Americans--the 
right to self-determination through voting.
    Quite literally, we are here today because just over 236 
years ago, 56 brave American patriots signed away their lives 
by declaring independence from Great Britain in the name of all 
who lived in the colonies. At the core of their statement--our 
Declaration of Independence--``We hold these truths to be self-
evident, that all men are created equal, that they are endowed 
by their Creator with certain inalienable rights, among these 
are life, liberty, and the pursuit of happiness, that to secure 
these rights governments are instituted among men''--embodies 
the simple principle that everyday Americans, the people who we 
all represent, hold the power; that government is truly for the 
people, by the people, and not the other way around.
    In fairness, they did not get it totally right at the 
beginning. Far too many Americans were initially denied the 
right to vote, and far too many more died in the ensuing 
battles to ensure that every American adult would have the 
right to participate in self-determination. But throughout the 
history of this great Nation, whether through laws or 
conflicts, America has always taken steps forward to make 
voting easier and more accessible--well, until this year.
    For a good part of my adult life, I was employed in the 
service of the people of the great State of Florida, a State 
that has had more than its share of voting drama. For four of 
those years, I had the truly humbling privilege serving as 
Florida's Governor, and during those four years, we undertook 
some important steps to make it easier for Floridians to vote.
    We eased the State's vote-by-mail laws to make it easier 
for Floridians to choose to vote from the comfort of their 
home.
    We instituted a standard 14 days of in-person early voting.
    We made paper ballots mandatory to ensure that there would 
be a record in the case of a recount.
    We streamlined the system so Floridians who had paid their 
entire debt to society could regain their right to vote and 
have their rights restored.
    And when, during the historic election of 2008, long lines 
at early voting sites led to some Floridians waiting many hours 
to cast a ballot, I as Governor signed an executive order 
extending early voting hours so that no Floridian would be 
faced with an unnecessary wait at the polls. In the end, some 
54 percent of Floridians cast a ballot before election day in 
2008. And thanks to the steps we had taken, despite a record 
8.3 million votes cast that year, we knew the outcome of the 
State election before the 11 o'clock news.
    Unfortunately, the last few years in Florida have not been 
so forward thinking. In 2011, the State legislature voted for 
and Governor Scott signed a massive election law designed, I 
believe, to make it harder for some Floridians to legally vote, 
and designed to encourage a certain partisan outcome. The law, 
among other things, put ridiculous restrictions on the rights 
of everyday law-abiding Floridians to register their fellow 
citizens to vote and reduced the number of early voting days 
from 14 to 8--and under the law before the Justice Department 
demanded changes, could have reduced early voting hours to as 
few as 48 in some of our counties. Furthermore, changes to the 
law made it harder for voters who went to the wrong precinct to 
cast a legal vote, which when combined with budget cuts in many 
counties that reduced the number of election day polling 
locations, resulted in unnecessary confusion and suppression on 
election day. In addition, the State tried to purge nearly 
200,000 legal Floridians from the polls. Thankfully, public 
pressure as well as questions from the Justice Department, 
forced the State to back down.
    The outcome of these decisions was quite obvious. Florida, 
which four years earlier was a model for efficiency, became 
once again a late night TV joke. Voters who wanted to vote 
early were frequently subjected to lines of 3 and 4 hours; and 
as Governor Scott refused to take action to ease the lines, in 
some cases those lines extended to six and seven hours. 
Election day confusion led to horrifying lines again on 
election day itself, which played a role in Florida remaining 
in the undecided category until Thursday, some two days after 
the last ballot was cast. Thankfully, this time the Presidency 
did not hang in the balance.
    Senators, as you spend time thinking about how we can make 
voting easier and more accessible, I would encourage you to 
think long and hard about establishing some national standards, 
standards that would ensure lengthy in-person early voting, as 
well as common-sense provisions.
    And I leave you once again with the words of our Founding 
Fathers: ``Governments are instituted among men (and women), 
deriving their powers from the consent of the governed.'' 
Ladies and gentlemen, we work for them. We offer ourselves to 
their service, and they choose. And as any of us knows who has 
lost well know, we do not always like the outcome. But that is 
how this works. In the end, America wins and democracy thrives 
when more people vote.
    Thank you again for the invitation. I look forward to the 
discussion.
    [The prepared statement of Mr. Crist appears as a 
submission for the record.]
    Senator Durbin. Thanks, Governor.
    Our next witness is the Iowa Secretary of State, Matt 
Schultz, elected to office in 2010 as the youngest Secretary of 
State in the country, currently serving his first term. He was 
elected to public office in 2005 as a city councilman in 
Council Bluffs, where he was re-elected and served for a total 
of five years.
    Secretary Schultz, thank you for coming, and please, any 
written testimony that you have will become a part of the 
record, and I would like you to take five minutes or whatever 
you can use to give us your thoughts on this issue.

STATEMENT OF THE HONORABLE MATT SCHULTZ, SECRETARY OF STATE OF 
                     IOWA, DES MOINES, IOWA

    Mr. Schultz. Thank you, Mr. Chairman. As you stated, my 
name is Matt Schultz, and I am the Secretary of State of Iowa. 
I do appreciate the opportunity to testify before your 
Committee today. I especially want to thank Senator Grassley 
for extending the invitation to appear before the Committee.
    I was elected to the office of Secretary of State in 2010. 
Fighting for election integrity in Iowa was a cornerstone of my 
campaign.
    It seems clear that a lack of confidence in the integrity 
of our elections is one of the reasons people do not vote. Some 
believe their votes do not matter, and that belief is a true 
cause of voter suppression across this country.
    We have seen that measures adopted to protect the integrity 
of elections, such as voter identification laws, have actually 
led to an increase in voter participation.
    Opponents of these measures frequently claim that laws 
meant to enhance election integrity are suppressing the vote. 
Yet they offer no evidence to support their claims, only 
theories often cloaked in political rhetoric.
    The truth is that when election officials take steps to 
secure the integrity and safety of the ballot box, confidence 
in the outcome rises, and voter participation increases.
    Iowa is nationally known for having a model election 
system. However, as with any system, there is room for 
improvement, and I have been advocating for those improvements 
for the past two years. One of my significant initiatives in 
this area involves an agreement with the Iowa Department of 
Public Safety to have a special agent from the Iowa Division of 
Criminal Investigation assigned to investigate election 
misconduct.
    The DCI agent is conducting multiple investigations into 
absentee ballot fraud, voting by individuals who are 
ineligible, and double voting. Since August 2012, charges have 
been filed in eight election misconduct cases based on 
information received from my staff, our local election 
officials, and members of the public. Anyone who says that 
voter fraud does not exist should look at the numbers that have 
been produced in a few short months. We all know that criminal 
investigations take time, and we expect many more charges 
related to election misconduct to be filed in the coming 
months.
    In our efforts to ensure election integrity, my office has 
taken several steps to maintain accurate voting lists in order 
to prevent people from taking advantage of loopholes in our 
election system. First, Iowa is one of numerous states 
participating in the Kansas Project, the purpose of which is to 
identify voters who may be registered or voting in more than 
one State.
    Second, Iowa matched voter registration records with death 
records from the Social Security Administration. More than 
3,000 individuals were identified who were deceased and 
registered to vote.
    Finally, my office compared a list of non-citizens with a 
driver's license to Iowa's voter registration data base. This 
comparison resulted in the unfortunate discovery that Iowa 
potentially had thousands of non-citizens who were registered 
to vote and over a thousand that may have cast illegal ballots.
    In determining how to proceed in light of this information, 
I recognized the delicate balance between the need for 
integrity in our elections and the fundamental right of voters 
to participate in the electoral process. Thus, it was important 
to proceed with the utmost caution to ensure that no citizen's 
right to vote was improperly challenged.
    As such, my office attempted to work with the Federal 
Department of Homeland Security over several months to develop 
a system that would enable us to enact appropriate measures in 
dealing with this issue. We realized it was likely that some of 
the individuals identified during this process subsequently 
might have become naturalized citizens of the United States.
    Therefore, a vital part of our effort was an attempt to 
gain access to the Systematic Alien Verification and 
Entitlements (SAVE) data base. Our intent was to use SAVE in 
order to determine if those individuals who were identified as 
being non-citizens were indeed still non-citizens.
    Throughout this process, I have worked with our Democratic 
Attorney General, Tom Miller, in a bipartisan manner to ensure 
that Iowa maintains the delicate balance between voters' rights 
and election integrity.
    While some States have found this balance difficult to 
navigate, in Iowa we have worked hard to achieve this result. 
Attorney General Miller has supported my efforts and recently 
said that his goal, my goal, is zero voter fraud, zero voter 
intimidation.
    Critics of this bipartisan effort to prevent non-citizens 
from illegally voting continually argue that voters are being 
suppressed. I am pleased to sit before you and report that Iowa 
had the largest voter turnout in our State's history. This 
shows that our election integrity efforts did not have a 
suppressing effect in Iowa. That is a result of working 
together across party lines.
    Again, thank you Mr. Chairman and members of the Committee 
for the opportunity to testify today. I will be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Schultz appears as a 
submission for the record.]
    Senator Durbin. Thank you very much, Secretary Schultz. We 
appreciate your testimony, and we will have some questions.
    I would like to now recognize the Honorable Gilda Cobb-
Hunter, who is here today representing the South Carolina House 
of Representatives, where she has been a representative from 
Orangeburg County, District 66, for over 21 years. Ms. Cobb-
Hunter is also the first African American woman in Orangeburg 
County ever elected to statewide office.
    Thank you for joining us today. The floor is yours, and any 
written testimony will be made part of the record.

    STATEMENT OF THE HONORABLE GILDA COBB-HUNTER, HOUSE OF 
   REPRESENTATIVES, STATE OF SOUTH CAROLINA, COLUMBIA, SOUTH 
                            CAROLINA

    Ms. Cobb-Hunter. Good morning, and thank you, Senator, and 
to Ranking Member Grassley and all other members of this 
Committee. I really appreciate you all having this hearing.
    I am here really to paint a face on a lot of information 
that you have read to hopefully make this real so that you 
understand as you deliberate the importance of the Voting 
Rights Act, that there are actual people who are affected by 
this.
    I am here in my capacity as a veteran legislator to talk 
specifically about South Carolina and about the implementation 
of the Voting Rights Act and how I want to offer two examples 
to show how important it is.
    First, of course, are efforts to enact a voter ID bill. The 
Ranking Member talked about a common-sense voter ID bill, and I 
assure you those of us in South Carolina who opposed this 
legislation agree that common-sense voter ID bills are 
certainly things that are important. We would argue that the 
legislation that passed in South Carolina was not a common-
sense bill, and I would like to tell you why.
    I represent a rural area. I represent a district that is 63 
percent black. Over 97 percent of the students are on free and 
reduced lunches. A lot of my constituents were born on farms. 
They were delivered by midwives. It sounds easy to say a free 
ID, as was offered by our State. It is more complicated than 
that. There are a number of documents that are required to get 
a free ID,--a birth certificate, for example. When you live in 
a rural community, it is very difficult, if you are 70 miles 
from the county seat--and that is 70 miles round trip--to have 
to pay someone to take you to the health department, to the DMV 
office, or wherever to get that. So there are barriers there 
that I think is important for us to keep in mind.
    I am here because, were it not for Section 5 of the Voting 
Rights Act, this notion of reasonable impediment that is a part 
of the South Carolina statute would still be there. It was only 
because of the preclearance that is required under Section 5 of 
the Voting Rights Act and it was only because South Carolina 
was forced to have this aired before a three-judge panel that 
we got some expansion of that definition at the trial.
    It is important, in my opinion, to note that when we talk 
about South Carolina, we need to understand the importance of 
the patterns and history of racism and discrimination that 
unfortunately we are still suffering. There are a number of 
things that suggest that we live in a post-racial society. I 
would respectfully suggest to you that that is not the case in 
South Carolina.
    I want to just kind of bring closure to my comments by 
suggesting to you that I have submitted written testimony that 
expands what I think are the important points, and I have 
chosen to take this opportunity to just talk with you a bit 
about the district, the people who were there.
    I assure you that communities of color in South Carolina 
and across this country take the right to vote very seriously. 
There is no sentiment in my community or any other community 
that I am aware of for tolerating voter fraud.
    I would point out to you, Mr. Chair and other members of 
this Committee, that in South Carolina, when we debated this 
legislation and the question of voter impersonation using an ID 
was posed, there was not one example that was cited, and much 
with what Senator Nelson talked about in the State of Florida.
    So I encourage you to recognize the importance of the 
Voting Rights Act, to recognize that it has a function of 
preventing discrimination, hopefully before it takes root, and 
in the case in South Carolina, it most certainly did that. I do 
not think it is too strong language to say that the legislation 
was a poll tax as implemented in our State.
    Thank you for the opportunity.
    [The prepared statement of Ms. Cobb-Hunter appears as a 
submission for the record.]
    Senator Durbin. Thank you very much, Representative. We 
appreciate your testimony, and there will be some questions to 
follow.
    Our next witness is Ken Bennett. He has served as Arizona's 
Secretary of State since 2009, previously served as president 
of the Arizona State Senate for four years, and in private 
business was the chief executive officer of GeoBio Energy. He 
has a long bio that will be made part of our record here, and 
we invite you now for your oral testimony and to submit any 
written testimony that you would like for the record.

 STATEMENT OF THE HONORABLE KEN BENNETT, SECRETARY OF STATE OF 
                   ARIZONA, PHOENIX, ARIZONA

    Mr. Bennett. Thank you, Mr. Chairman and members, for 
allowing me to be here today. I have submitted written 
testimony and ask that it be accepted, but I am going to speak 
more from the heart today and tell you a little bit about what 
is going on in Arizona.
    First, I would like to just take a moment and bring the 
thoughts and prayers of Arizonans to the folks in Connecticut. 
Having experienced, not as large but a similar incident a few 
years ago with Representative Giffords, who sat next to me on 
the floor of the State Senate, we know the heartache, and our 
thoughts go out to them.
    Even though the Secretary of State is the chief elections 
official in Arizona, the real work mostly is done at the county 
level. Within our 15 counties, we have county recorders and 
election directors who are very bipartisan, multi-partisan, and 
work across party lines within their counties and across county 
lines to try to make sure that every Arizonan who is eligible 
to vote gets to vote. We have very dedicated people at the 
county level, and it is kind of a misnomer to say that the 
chief elections official is at the State and people get the 
idea that the State runs elections. In Arizona, it is really 
the counties.
    I think Arizona has been served very well by having local 
officials elected by their friends and neighbors in those 
counties and communities that actually conduct the elections, 
and they are, more than anyone else, interested in making sure 
that all of their citizens who are eligible to vote get the 
right to do so and make it as convenient as possible.
    Elections in Arizona really happen in one of four phases, 
and I will go briefly through each one. The first phase is the 
voter registration process. We have a little over 3.1 million 
registered voters in Arizona. That is down slightly from a high 
point a couple years ago at a little over 3.2 million. Most of 
that drop occurred with cleaning up the rolls in 2011 per 
Federal and State legislation. I know of no complaints or 
thoughts that anyone was removed or purged--in fact, it was not 
a purge. It was just a normal cleaning of the rolls that 
Federal and State laws call for.
    Arizona was the first State to allow online voter 
registration. Almost 80 percent of our voter registrations 
occur through that process. It goes through the Department of 
Motor Vehicles.
    We also allow what is called the Permanent Early Voter List 
where voters can be on a list and be mailed a ballot for every 
election that they are eligible to vote in without having to 
request each time.
    For the last 40 years, Arizona's voter participation in 
elections has been very steady around the 75-percent level. 
Again this year, we were at 74.6 percent, I think it was.
    In 2004, the citizens of our State did pass a proof of 
citizenship and ID at the polls legislation that we have been 
implementing, and, you know, I would agree that our fundamental 
first right is our right to vote. I think closely behind it or 
maybe equal with it is the right to know that our vote is not 
being canceled out or offset by somebody who is not allowed to 
vote or eligible to vote.
    The second part of our system is how candidates get on the 
ballot. I do not think there is anything real unique about 
Arizona. We had a couple of redistricting issues and a couple 
of Congresspeople combined into the same district, and we had 
some challenges there. But we worked all through those.
    The third phase in our system is how do we get the ballots 
to the voters and get them back. In Arizona, about two-thirds 
of our voters vote by mail, most of them on this Permanent 
Early Voter List. The other third still enjoy going to the 
polls. The voters rejected within the last 10 years a ballot 
proposition to go to all-mail elections. And so we have about 
two-thirds that vote by mail, one-third that go to the polls. 
This year we had a significant reduction in the numbers who 
went to the polls and had to come back to show ID. Those number 
of voters dropped by almost half.
    And then I see my time is quickly going away, so I will go 
to the fourth phase of our election system. That is the 
counting of the ballots. We focus on two things there: accuracy 
and the inclusion of as many voters as possible. I personally 
sat with officials and volunteers from both parties in the 
counties working through processing ballots and identifying 
when somebody has spilled something on their ballot and the 
machine cannot count it. Tens of thousands of ballots 
meticulously duplicated so that we can include and count the 
ballot of every eligible voter.
    And as far as accuracy, we had a unique situation, and I 
will conclude very briefly. Two years ago, we had the first 
recount of a statewide election in the State's history. One of 
the ballot measures was losing by about 126 votes out of over 
1.8 million votes cast for or against that ballot measure. To 
make a long story short, as an accounting graduate, I began to 
fear that when we did the recount--which State law says you 
have to have a recount if it is less than 200 vote difference 
between the winner and loser. I realized that if we were 99 
percent accurate in the recount, we could be off by about 
18,000 votes from the first count. If we were 99.9 percent 
accurate, it would be 1,800, or 99.99 percent accurate, 180 
still in excess of the difference between the yeses and noes. 
When it was all said and done, the vote total on the second 
recount changed by 66 votes out of 1.8 million. I think our 
accuracy percentage was 99.9994 percent.
    Our goal in Arizona is to have the best election system in 
the world. We are on the way there. We are not perfect. We have 
a lot of improvements that we can make, but we have a lot of 
dedicated individuals from both parties that are working hard 
to make sure that every Arizonan that is eligible to vote can 
and does so.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bennett appears as a 
submission for he record.]
    Senator Durbin. Thank you very much, Mr. Bennett.
    Nina Perales is vice president of litigation for MALDEF, 
the Mexican American Legal Defense and Educational Fund. She is 
well known in the civil rights community for her work on voting 
rights, and her cases includes LULAC v. Perry, a challenge to 
Texas' congressional redistricting, which she led through trial 
and a successful appeal to the U.S. something.
    Ms. Perales, the floor is yours.

   STATEMENT OF NINA PERALES, VICE PRESIDENT OF LITIGATION, 
 MEXICAN AMERICAN LEGAL DEFENSE AND EDUCATIONAL FUND (MALDEF), 
                       SAN ANTONIO, TEXAS

    Ms. Perales. Mr. Chairman, Ranking Member Grassley, and 
members of the Judiciary Committee, thank you for inviting me 
to testify today.
    Today, Latinos constitute the largest racial minority group 
in the United States. Over the same decade, the number of 
Latino eligible voters--U.S. citizen adults--increased from 13 
million to 21 million.
    As the Latino and other racial minority communities have 
grown and expanded their share of the U.S. electorate, some 
States have attempted to slow registration and participation of 
new voters.
    For example, Arizona adopted a new law in 2004 that changed 
voter registration rules to require only new voter registrants 
to provide documentary proof of U.S. citizenship. Prop 200, as 
it is called, has had a broad negative impact on voter 
registration across Arizona. Following enactment of the law, 
over 30,000 individuals were rejected for voter registration.
    Prop 200 does impose special burdens on naturalized U.S. 
citizens. Although registrants are encouraged to write their 
driver's license number on the registration form, naturalized 
citizens who obtained their driver's licenses years earlier, 
when they were permanent legal resident immigrants and, 
unbeknownst to them, were coded as foreigners in the driver's 
license data base, are flagged for rejection of their voter 
registration applications. This often forces them to have to 
register twice and sometimes even register in person because 
the naturalization certificate says on its face that it should 
not be photocopied.
    The Ninth Circuit, sitting en banc, invalidated Prop 200 as 
inconsistent with the National Voter Registration Act. 
Arizona's appeal is now pending in the U.S. Supreme Court.
    Although Prop 200 states that its purpose is to combat 
undocumented immigration, Arizona has not identified a single 
instance in which an undocumented immigrant registered or voted 
in Arizona.
    In Texas, in 2011, the legislature enacted the strictest 
photo voter ID law in the Nation. The law has not gone into 
effect, however, because a Federal court in Washington, D.C., 
concluded that it violated the Federal Voting Rights Act.
    Texas already has a voter ID requirement. The 2011 law 
reduced the list of acceptable ID, eliminating, for example, 
voter registration cards, birth certificates, student ID cards 
issued from State universities, and employment identification 
cards with photos. Although there is no logical connection 
between citizenship and holding a driver's license, during the 
enactment of the Texas voter ID law elected officials 
consistently affirmed that a State-issued photo voter ID was 
needed to prevent non-citizens from voting.
    In her testimony in the voter ID case, State Representative 
Debbie Riddle, when asked about specific incidents that she 
knew of voter fraud, described one incident in which she saw a 
Hispanic, Spanish-speaking woman who needed assistance voting. 
Representative Riddle offered this incident as an example of 
voter fraud, despite the fact that she also testified she had 
no knowledge whether the voter was a citizen or not, only that 
she was Hispanic.
    In 2012, both Florida and Colorado launched voter purges, 
claiming an urgent need to remove thousands--thousands--of non-
citizens from the rolls. In both cases, the purges were based 
on the same flawed driver's license data base searches that 
were found by the Arizona Federal court in 2008 to misclassify 
naturalized citizens as non-citizens. Both purge efforts, after 
sending letters to thousands of voters threatening to remove 
them from the voter rolls for non-citizenship, diminished to 
less than 200 voters in each State. In terms of identifying 
actual non-citizens, the outcome was predictably small.
    In Miami-Dade, 13 registrants reported they were not 
citizens, two of whom had voted. In Colorado, 14 voters were 
removed from the rolls. None had voted.
    The Texas 2011 redistricting also targeted Latino voters. 
Despite the fact that Latinos constituted 65 percent of the 
State's overall population growth over the past decade and was, 
therefore, the leading reason that Texas gained four new 
congressional seats, the Texas legislature enacted 
redistricting plans that intentionally thwarted the growing 
Latino electorate. The plans for Congress and House of 
Representatives were blocked by a Federal court in Washington, 
D.C., on the ground that both plans reduced minority political 
strength and that the congressional redistricting plan was 
purposefully discriminatory on the basis of race.
    Although Latino registration and voting rates still lag 
behind those of Anglos, Latino voters are steadily increasing 
in number and achieving higher levels of voter participation. 
State practices that seek to freeze in place their current 
electorates and limit the entry of Latino voters can run afoul 
of Federal law as well as the Constitution and are 
fundamentally undemocratic.
    Thank you for the opportunity.
    [The prepared statement of Ms. Perales appears as a 
submission for the record.]
    Senator Durbin. Thank you very much for your testimony.
    I would like to ask the election officials here, Mr. 
Bennett and Mr. Schultz, the following: If you believe--and we 
all do--that voter fraud is, if not a crime, a serious act that 
should be dealt with in terms of our policy and laws, and if 
you believe that such cases should be investigated and 
prosecuted because of the serious nature of those cases, I 
would like for both of you to give me the evidence in Iowa and 
Arizona of convictions for voter fraud that have led to your 
changes in the law.
    Mr. Schultz. Do you mind if I got first, Mr. Chairman?
    Senator Durbin. Please.
    Mr. Schultz. Thank you. I think that is a great question, 
and I think it is a very difficult question in some ways 
because not until now have we had resources to even go after 
this.
    Senator Durbin. I beg your pardon?
    Mr. Schultz. Not until recently have we as the Secretary of 
State's office had resources dedicated toward an investigator 
to go and do investigations into these crimes.
    Senator Durbin. Excuse me, sir. You are saying that the law 
was changed in Iowa even before the investigation began?
    Mr. Schultz. Well, let me back up. The law has not been 
changed in Iowa. I would say Iowa--let me address some of your 
concerns that you stated in your opening statement. Iowa has 40 
days of early voting. Our polls are open from 7 to 9 on 
election day. We do everything we can to encourage people to go 
vote.
    The question is then, when you have non-citizens who are 
registered to vote and voting, you have potential people double 
voting, you have absentee ballot fraud----
    Senator Durbin. Do you have evidence of non-citizens voting 
in Iowa?
    Mr. Schultz. Yes, we have actually arrested--since August 
2012, six people have been arrested----
    Senator Durbin. Six. How many have voted since----
    Mr. Schultz. All of those who had voted.
    Senator Durbin. No. I am saying of the total number of 
voters since 2012.
    Mr. Schultz. Well, it is a difficult question because we 
have three--we identified 3,582 non-citizens who were 
registered to vote, but we were not sure if they were still 
non-citizens.
    Senator Durbin. I am guessing that millions--millions have 
voted?
    Mr. Schultz. 1.6 million----
    Senator Durbin. 1.6 million, and there were six cases.
    Mr. Schultz. No. That is what we have so far. We just 
started these investigations in August.
    Senator Durbin. Well, let me ask Mr. Bennett that same 
question. You have heard Ms. Perales' comments. It strikes me 
that there are legitimate questions as to why, if voter fraud 
is a serious issue, you have decided to only ask for proof, a 
birth certificate, of new voters as opposed to all voters.
    Mr. Bennett. Well, I think that paints an incorrect picture 
of what the voters passed in 2004. What they did is grandfather 
anyone who had a State driver's license or a State-issued ID 
before a certain cutoff. I think it was 1996.
    Senator Durbin. I think that is what she said.
    Mr. Bennett. So that essentially everyone was grandfathered 
in, and then as new voters move around and come in, they are 
asked to provide proof of citizenship.
    As to the evidence of voter fraud, we have prosecuted about 
15 cases within the last 18 months or so of people who were 
found to have voted in an election--these were all the 
Presidential election of 2008, I believe it was--voters who had 
been found to have voted in Arizona in an election that they 
also voted in another State. We have counties that report to us 
that they remove hundreds of voters from the registration voter 
rolls monthly who report on forms that are sent out to 
potential jurors that they are, in fact, not citizens and 
cannot serve on a jury, but when those juror questionnaires are 
reviewed by the county officials, hundreds who are found to 
also be on the voter rolls have to be removed from the voter 
rolls.
    I do not know of any----
    Senator Durbin. Fifteen have been prosecuted? You say 15 
have been prosecuted?
    Mr. Bennett. Fifteen have been prosecuted during the last 
18 months or so.
    Senator Durbin. And how many voted, for example, in the 
November 6th election in Arizona?
    Mr. Bennett. About 2.3 million.
    Senator Durbin. Ms. Perales, I would like you to take this 
to the obvious question. We are not looking to justify voter 
fraud, make it easy for those who are ineligible to vote. We 
are trying to stop those obstacles and intimidation of voters, 
which holds many people back who are eligible. So how are we to 
deal with this question, do you believe, in a fair fashion?
    Ms. Perales. Thank you, Senator. What we have learned 
through these efforts by the States, some of which have been 
described here, is that there are very, very, very tiny 
numbers, sporadic, isolated incidents of people being 
registered when they are not eligible because of citizenship. 
The numbers are very consistent across the States, less than 
10, less than 20. And Arizona, when it had the opportunity to 
prove this in court, came up with less than 20, most of whom 
were Canadians, by the way, for some strange reason.
    Senator Durbin. A serious problem.
    [Laughter.]
    Ms. Perales. And less than 10 who had voted. So we know the 
numbers are very tiny, very consistently small--in fact, so 
small that they are even smaller than the 99.9994 accuracy 
level that Secretary Bennett is rightfully proud of in terms of 
the accuracy of counting ballots.
    Contrast that with the efforts themselves where thousands 
of letters have been sent to persons who have been erroneously 
identified as non-citizens because of the use of flawed 
driver's license data bases. I have to take one small issue 
with Secretary Schultz, who said he had identified 3,500 non-
citizens using the driver's license rolls. He did not. He 
identified 3,500 people who were non-citizens at the time that 
they obtained their driver's licenses, and we know that since 
that time and before they registered to vote, the overwhelming 
majority--and perhaps all of them--have become naturalized 
citizens.
    So any State at this point that undertakes to accuse people 
of non-citizenship based on driver's license rolls is on notice 
that this is not correct and should not be done. It is 
fundamentally unfair.
    So, yes, are there tiny numbers--and Senator Grassley did a 
wonderful job of describing also much greater numbers of 
persons, for example, who are registered in more than one 
State. And these things ought to be approached in a very 
common-sense, fair way with very individualized looks at people 
who might possibly be ineligible. But sending out thousands of 
letters to people accusing them of non-citizenship, telling 
them they will be thrown off the rolls if they do not respond 
with paperwork within 30 days is not the way to go about it.
    Senator Durbin. Governor Crist, my time is up, but I wanted 
to note one fact here. It is my information that some 8.3, 8.4 
million people cast votes in the Presidential election in 
Florida, and the President's margin was about 74,000, which is 
a very, very small margin.
    When I came down to Florida, the thing that I found 
interesting was most of the legislative activity had been 
focused on early voting and registration as opposed to absentee 
voting.
    Mr. Crist. Yes, sir.
    Senator Durbin. Historically, we had testimony in Florida 
that Republicans have used absentee voting much more 
effectively than Democrats. Democrats have used early voting.
    Mr. Crist. I have seen it.
    Senator Durbin. I will bet you have. If you were out to 
stop voter fraud and believe that you have got to limit early 
voting, would it not also stand to reason that you would be 
making some limitations on absentee voting? And I do not 
believe Florida did.
    Mr. Crist. Well, yes, sir, to answer your question in the 
affirmative. But I think that what all of us want are free, 
open, and fair elections for everyone, and I think the 
unfortunate thing that we have seen over the last couple of 
elections is, through interest groups like ALEC, a concerted 
effort to try to make it easier for one party to win over 
another. And I think the greatest example of that, Mr. 
Chairman, is the elimination in my State of the Sunday voting 
before the Tuesday election. And my friend Senator Nelson 
pointed this out in his opening testimony about the fact that 
in two specific communities, generally you see a historic 
tradition of citizens that are Hispanic or African American 
take the opportunity, typically after church, on that Sunday 
before the Tuesday election to go to the polls. That was 
eliminated in my State in 2011. We had in 2008. And what we did 
to adjust to that this year was organize a ``Souls to the 
Polls'' effort two Sundays before the Tuesday election, and it 
was pretty successful. But it pointed out something else, that 
even when these road blocks are put in place--and I was very 
proud of my fellow Floridians. They at first I think were 
frustrated, but I think ultimately became infuriated that 
somebody was daring to try to take away their opportunity and 
put obstacles in place in front of them for simply trying to 
exercise this precious right to vote. And so in Florida, even 
though the race had already been called for the Presidency, my 
fellow Floridians, as I think you indicated, continued to stay 
in line after the decision had been concluded because they were 
not going to be denied their right to vote in that election, 
and God bless them for that.
    Senator Durbin. Thank you.
    Senator Grassley.
    Senator Grassley. Thank you very much. Thank you all for 
appearing, and particularly my own Secretary of State for 
coming, and my first question would be to my Secretary of 
State, applauding your efforts to give non-citizens who you 
thought were on the voter rolls that should not be there notice 
and an opportunity to be heard before they were removed from 
the rolls, and I think that our own Attorney General, a 
Democrat, has thought your efforts were well-meaning. But you 
have been unable, am I right, to proceed fairly to remove 
ineligible voters because you have received no cooperation from 
the Department of Homeland Security? So I would like to give 
you an opportunity to describe your request for assistance from 
that Department, their response, and have they shown any 
concern that ineligible voters may be diluting the votes of 
citizens?
    Mr. Schultz. Thank you, Senator. I think it goes back to in 
March, when we did this match--and I would be very clear--of 
potential non-citizens. Unlike Florida and other States, we did 
not ask to have these people removed, we did not send any 
notices, because we recognized there was a potential for these 
individuals, that they may have, when they got their driver's 
licenses, been non-citizens and then later became citizens and 
voted. And so we attempted to try and get access to the SAVE 
data base. U.S. Code is very clear that we should have access 
to that information. And so we started talking to SAVE and its 
representatives in March and put our initial application in 
April, and then there was a lot of back-and-forth until July 
when they finally said that they would give us access to it. 
But then we did not get access to it, and we still have not 
received access to it.
    Now, in all fairness, in late August we were sued by the 
ACLU, but that did not prevent us from being able to get access 
to the data base. It was more of what we would be able to do 
with it after that point. We still have not received access to 
the data base. The discussions have just basically gone silent. 
And, you know, it is disappointing because we are trying to do 
the right thing. We do not want to accuse somebody who is a 
citizen of the United States that they are not able to vote and 
that they are not a citizen. That SAVE data base gives us real-
time information on an individual's citizenship and would allow 
us to make sure, of those 3,582, that we would be able to find 
out who is a citizen and who is not. We do know at least six of 
those individuals were not citizens because our Department of 
Criminal Investigation did find that out through investigative 
work, but that takes a lot of time. Had we been able to get 
access to this information, we would have been able to do this 
differently.
    Senator Grassley. Governor Crist, the charge that the 
Florida law suppressed voting and was designed to do so, it is 
my understanding in Brown v. Detzner that the court rejected 
that argument, finding that the law's voting changes neither 
had the intent nor the effect of discriminating on the basis, 
and that means the court rejected the claim of voter 
suppression.
    So isn't it the case then that the Federal court rejected 
the argument of Floridians, and maybe your argument as well, 
that the Florida law ``resulted in the suppression on election 
day'' ?
    Mr. Crist. Perhaps by that interpretation, but I have the 
experience of having been in Miami Gardens in Miami-Dade County 
during early voting, as well as Aventura in Miami-Dade County 
during early voting, and witnessing firsthand the long lines 
that were created by the law that was passed in my State in 
2011 and signed by our current Governor. There were lines in 
Miami Gardens, which is largely African American, 3 and 4 hours 
people had to wait to vote in early voting. And over in 
Aventura on the same afternoon, I saw lines that were requiring 
people to wait 2\1/2\ to 3 hours for early voting. So I am not 
sure what the court was looking at, but I know what I saw, and 
it was suppressive.
    Senator Grassley. Thank you, Governor.
    I would go to Secretary Bennett. I believe that the voter 
ID laws are common-sense measures to prevent voter fraud, so, 
Secretary Bennett, it is my understanding that Arizona does 
have a voter ID law. From your own experience and that in other 
States, has the adoption of voter ID laws suppressed minority 
turnout? Or maybe I should say turnout generally, but I think 
you ought to answer from the----
    Mr. Bennett. Thank you, Mr. Chairman, Senator. Actually, we 
have the highest number of registered Latino voters in Arizona 
and as a percentage of our total voter base now, eight years 
after the adoption of Prop 200, as was mentioned by Ms. 
Perales. So there is no evidence in Arizona that voter ID or 
proof of citizenship in order to register has had a negative 
effect on minorities. And the only one--we do not collect 
ethnic data in any way on our voter registration form. The only 
way we can really do these studies is by exit polling or some 
of our larger counties do Hispanic surname evaluation. From the 
Hispanic surname evaluation, we have the largest percentage of 
Latino voters of our population now, 8 years after Prop 200 
went in. We have the highest number of total Latino voters in 
Arizona than we have ever had. And they are participating at 
the polls in higher percentages than ever before.
    Just 2 weeks ago, I met with two individuals, heads of 
organizations, that did large Hispanic and Latino voter 
registration drives in Arizona. Just between these two 
organizations alone, they registered over 34,000 Latino voters 
in a matter of weeks or a couple of months maybe before the 
primary and general elections. And the voter turnout is higher 
than it has ever been from that group.
    Senator Grassley. Thank you all.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Senator Durbin. I would like to 
thank the whole panel for your testimony today and for your 
determination to make sure that we have a free, fair, open 
electoral system in the United States.
    It seems to me that the core issue in this hearing is one 
of balance, of understanding consequence and scale. As Senator 
Durbin I think rather pointedly questioned the two State 
election officials, voter integrity, vote integrity is a 
critical issue. But you can only point to a handful of 
instances where there are real demonstrated challenges. And in 
my view, what we have heard in this hearing and in other 
hearings and what I have read and observed, denial of access to 
polling places, whether through very long lines or through 
aggressive purges of the rolls or through a variety of other 
tactical or technical means, has a significantly greater impact 
on the actual ability to exercise the franchise.
    And in reality, a lot of this comes down to being outcome 
determinative, as lawyers tend to say. When Florida had an 
election in 2000 where the Presidential election hung in the 
balance and the initial difference was, I think, 537 votes, you 
suddenly begin to focus a lot of attention on these very 
minor--you know, 99.999 versus 99.9999 can actually determine 
who is Governor, who is Senator, who is President.
    And so I think it is deserving of real thorough attention 
to what the impact is on the ability to vote of some of these 
very restrictive changes, and I was truly disturbed and 
troubled by Senator Nelson's testimony and by former Governor 
Crist's testimony about what may have motivated some of the 
changes and decisions that may have been taken in Florida and 
their impact on access to the polls.
    So if I might, with a first question to Governor Crist, 
what do you view as the most important election administration 
reforms that would actually sustainably and successfully 
improve access to the ballot and ease of voting?
    Mr. Crist. Well, I think there are several things, and, 
Senator, I appreciate the question. Number one, if you would 
restore the early voting days from the now restricted 8 days 
back to 14, I think that would be a step in the right 
direction.
    I also think, as we chatted about earlier, the fact that 
reopening that Sunday before the Tuesday election would be 
honoring of a lot more people, candidly, and the practice that 
they may want to participate in, in the fashion they want to 
participate in it.
    I also think that as it relates to voting by mail, the new 
law in Florida passed in 2011 said that when people sent in 
their mail ballot--and I am pretty sure I have got this right--
the only evidence that could be utilized to determine that the 
person sending in the ballot was actually the one purporting to 
do so was their signature on that ballot when they sent it in 
and that it matched up with the signature at the supervisor's 
office.
    Well, if you are in a situation like my mother, who last 
year, unfortunately, had a stroke--by the grace of God, she is 
doing pretty well now, and literally, thank God for that. But 
one residual that is lingering is that she is not able to write 
with her right hand, and she is right-handed. And so how in the 
world are you going to have your signature match up with the 
signature that is on file with the supervisor's office if you 
have suffered that difficulty.
    So there are several things that I think are just common 
sense: more time to vote, make it more convenient to vote, 
appreciate that some people's ability to sign their signature 
as they did before may have altered or changed, and just be 
respectful to the voter, the people that we are supposed to 
work for, and allow them to exercise this wonderful opportunity 
and privilege that we have in America to choose our leaders and 
have the chance to exercise that right that so many have fought 
and died for in a common-sense way.
    Senator Coons. Well, thank you, Governor. One of the things 
I have tried to contribute to the conversation here in the 
Senate is a bill, the Fair, Accurate, Secure and Timely, or 
FAST, Voting Act that urges States to compete for a pot of 
Federal matching funds and to put forward proposals for things 
that they might do--online, registration, voting by mail, 
expanding the days available--to ensure that we have got as 
much access to the opportunity to exercise the right to vote as 
reasonably possible. Other bills impose Federal minimum 
standards in terms of access, and I would be interested--if I 
might, to Secretary Bennett, I admire your stated goal of 
having the best election system, I think you said ``in the 
world.'' I serve on the Foreign Relations Committee with 
Senator Durbin, and we both are quite interested in and engaged 
in the promotion of democracy in the developing world. It is an 
embarrassment, I think, to this country, when we have an 
election where there are 6-,
7-, 8-hour waiting lines, and I am really concerned and 
troubled by what seem to be some of the motivations behind more 
aggressive registration and voter ID laws.
    Help me understand--you made passing reference to county 
officials--as a former county official. What do you see as the 
capability, the capacity of States and counties to comply with 
Federal mandates, minimum standards to ensure that we really do 
have the best voting system in the world?
    Mr. Bennett. Thank you, Senator. It has probably been 
better than ever before since the passage of HAVA and the 
related Federal dollars that came out because of that. But I 
think we are at the point where, at least in Arizona, and from 
conversations I have had with people around the country, a lot 
of the equipment that was purchased with those dollars are 
nearing end-of-life cycles. That is a point that I have 
discussed with the 15 county recorders and election directors 
in Arizona as recently as last week to come up with a funding 
stream. I have proposed something along the lines of maybe $3 
or $5 per voter per year be budgeted at each of the county 
levels as well as out of the State general fund budget. To me, 
$5 a year per registered voter is a reasonable sum to 
accomplish the very fundamental purpose of allowing people to 
vote without having to set in long lines, upgrade equipment, 
maybe more in the direction of voting centers--two of our 
counties, for example, have already moved in that direction--
where any voter from a county can go to any voting center, and 
you do not have the phenomenon of, ``I am in the wrong polling 
location, and the ballot that I cast did not count because I 
did not find the right polling location.''
    Senator Coons. That is compelling.
    Mr. Bennett. So there are technological advances and things 
that we can do. There is no more Federal money. We still have a 
little bit of it left in Arizona that we will probably make 
available as seed money to the counties, maybe in a matching 
thing, to address the renewal of our equipment. But the 
resources are getting very thin.
    Senator Coons. Understood. I appreciate that input, and the 
regional voting centers idea strikes me as compelling.
    Mr. Chairman, might I have one last question? Thank you.
    Ms. Perales, would you agree--I believe from your testimony 
you would agree--that access to the ballot is diminished by 
long waiting times and that we should be concerned about 
disparate impact? A recent study by Hart Research showed that 
in this election, 2012, 22 percent of African Americans and 24 
percent of Latinos had to wait more than 30 minutes, 30 minutes 
or longer, but only 9 percent of Caucasian or white voters had 
to wait 30 minutes or longer. Would you care to think and share 
with me about the cause of this disparity, what can be done to 
remedy it, and what does it say about the continued value of 
the Voting Rights Act at a time when the Supreme Court is 
reviewing its appropriateness?
    Ms. Perales. Well, thank you. I do not have an explanation 
for why there are longer lines for some minority groups 
nationwide. I think the explanation may vary State by State. 
But it is very discouraging to have to wait such a long time to 
be able to cast your vote. And if you have a job where you do 
not have the flexibility to take time off to vote, it makes it 
even tighter because you are in line and you realize you have 
to go back or you are going to get in trouble with your boss. 
Or many of us face, you know, the after-work attempt to vote 
where you have got to get home and you have got to cook dinner, 
and you have these things that you have to do with your family. 
So it makes it very difficult, and we have seen a lot of people 
just get out of line and go home.
    With respect to Section 5, I have to say that it has been 
so critically important for the minority community over time 
and since the time that the covered jurisdictions were covered 
in 1965 and 1975. Just this year, speaking from my perspective 
as a litigator, it has continued to be critical and very much 
alive for us. In Texas, when the legislature passed a plan that 
absolutely, clearly discriminated against Latinos and African 
Americans, and even was found to have purposefully racially 
discriminated, if we did not have Section 5, those plans would 
have gone into effect while we struggled in court with our 
limited resources to assemble enough experts and other 
witnesses to convince a three-judge panel in Texas that 
eventually it would have to be enjoined.
    You know, Section 5 shifts the burden properly to 
jurisdictions that are covered to show at the outset that their 
laws are not discriminatory. In the case of Texas and the 2011 
redistricting, Texas could not prove that its plans were non-
discriminatory in the D.C. court, and the plans were rightfully 
enjoined. And as a result, we had elections under interim plans 
that were vastly more fair than they would have been otherwise.
    So Section 5 is very much alive for us. That is not the 
only example I could give, but I am giving you a short answer. 
It is alive, it is vibrant, and it is so needed. It is precious 
to us and the core of the most effective piece of civil rights 
legislation ever passed by Congress.
    Senator Coons. Thank you very much. Thank you both for your 
testimony and for your very hard work litigating what I know 
are complex and difficult cases.
    Just in closing, if I might, Mr. Chairman, say that I, too, 
am passionate about ensuring that the Voting Rights Act remains 
alive and relevant and that the ugly history that led to the 
1965 Voting Rights Act and to these preclearance requirements, 
there is plenty of evidence--and you cite the Texas case--to 
suggest that these are, sadly, still valid concerns and that 
they require strong Federal legislative action to ensure access 
to the polls, that a safe, that a fair, and that an open 
electoral system remains a part or is a part, becomes a part of 
America's electoral future, because our history suggests that 
in the absence of determination and rigor, we may lose one of 
the most foundational civil rights in this country.
    Thank you for your work. Thank you all for your testimony 
today.
    Senator Durbin. Thanks, Senator Coons.
    Let me ask Representative Cobb-Hunter and Ms. Perales the 
following question. I think I know--I do know the answer, but I 
want to hear your response.
    What is the big deal? If I want to ride on an airplane, I 
have got to show an ID. If I want to rent a car, I have got to 
show an ID. Sometimes even to go to a Presidential rally, I 
have to show an ID. So what is the big deal of showing an ID to 
vote, for goodness' sakes, to make sure that I am who I say I 
am?
    Ms. Cobb-Hunter. Well, Senator, we heard that question a 
lot during the debate in South Carolina, and I will tell you 
what the big deal is for my constituents. An ID is something 
that is difficult to come by, and my perspective is rural and 
dealing with people who do not have documentation that might be 
necessary.
    It is important to note that the notion of an ID in and of 
itself is not the problem. We, those of us in South Carolina, 
members of the Legislative Black Caucus, who walked out of our 
legislature during the debate on this, where we came down in 
disagreement was that the barriers that requiring a photo ID 
set in some communities were just simply too much for our 
constituents to deal with.
    For example, there was the offer of a free ID, just go to 
the DMV and you can get a free ID. The reality, as I said 
earlier and as is in my written testimony, is that it is not 
that simple.
    For example, women who are divorced, if you go to the DMV 
and a name is different than what you had, then you are talking 
about incurring expenses of going through name changes because 
it does not match what is on the original voter registration. 
If you lived on a farm and you were delivered by a midwife and 
the record of your birth, for example, is in a family Bible--in 
a lot of communities of color, births are recorded in family 
Bibles.
    So the issue is not the ID. The issue for us in South 
Carolina was the documentation that is required to get an ID. 
And so it is not that we support fraud, and I would point out 
again that there were absolutely zero--I have heard six, I have 
heard different numbers here. In South Carolina, there was not 
and is not one case that can be cited of a person showing up at 
the polls with the ID of another person attempting to vote.
    It is critical for us in South Carolina that the 
preclearance requirement of Section 5 be maintained, and let me 
just end by saying we were fortunate in our State that the 
three-judge panel ruled that this ID law could not take effect 
before the November elections. Where we are concerned is that, 
given my history in the legislature in South Carolina, all of 
the conversation and explanation that we had before the three-
judge panel, where our State election officials and their 
discussion of reasonable impediment, in effect creates a new 
law. I am concerned about what the implementation will actually 
look like.
    We have no record of saying--in response to the other 
question about whether or not these voter ID laws had impacted 
voter turnout, we cannot answer that question yet in South 
Carolina because it has not been implemented. But I will say 
that there is mass confusion in the State. We have got an 
election that will come up in January, a local election, and 
there is confusion because people are still under the 
impression that the law that was litigated before the three-
judge panel is the law that will take effect then.
    So we are all for integrity, but we are not for barriers 
that preclude people the right to vote.
    Senator Durbin. Ms. Perales, would you like to add 
something?
    Ms. Perales. Thank you, yes. So the big deal is that most 
people do have a photo ID that could use to vote, depending on 
what State you are in. But many people do not, and there are 
higher numbers of these people in certain subcommunities, so I 
will mention briefly the clients that I had in the voter ID 
litigation in Texas.
    Two young women, recently graduated from high school, 
Victoria and Nicole Rodriguez, top of their class, the pride of 
our community, full scholarships to college. They had student 
IDs from high school, but they did not have driver's licenses 
because it was too expensive in their very limited income home 
to put them on the car insurance, because when you get a 
driver's license, your parents' car insurance goes through the 
roof, especially if there are two of you.
    And so these young women actually came to D.C. and 
testified, and they boarded a plane using their student ID. 
They got here. They were able to check into a hotel, and we 
helped them along the way. But this was ID that under the Texas 
new law was not going to be sufficient. So the tighter the 
voter ID law is, the more difficult it is for certain groups.
    Victoria and Nicole were young, and they were poor, quite 
frankly. And in that group, especially if you are dependent on 
public transportation, there are going to be much higher rates 
of people without voter ID.
    The first analysis done by Texas in the preclearance 
process in front of DOJ yielded a statistical result that 
Latinos were twice as likely as non-Latinos to lack an official 
driver's license issued by Texas. Nobody is really sure whether 
that is the true number, but that was the first number that 
Texas came up with.
    Senator Durbin. Thank you.
    Mr. Bennett, I am going to ask you the last question here. 
Could you say in just a few words, could you describe to me why 
a person in Arizona, when they attempted to vote, would receive 
a provisional ballot?
    Mr. Bennett. The most common reason is that--this past 
year, this past election just a month ago, the most common 
reason is that they had been mailed an early ballot and either 
lost it in their household shuffle or whatever and showed up on 
election day at a polling location to vote. At that point, 
there is an indication by their name that they have a live 
ballot that was mailed to them at home. So that they do not 
inadvertently get to vote twice, they are asked to vote a 
provisional ballot. The provisional ballots are set aside for a 
day or two until all of the late-arriving ballots by mail are 
verified. And then once we know that we did not receive a 
ballot by mail from that voter, then their provisional ballot 
is cast.
    We had many voters who admitted that they heard on the 
media or whatever that, you know, if you had mailed your ballot 
on Friday or Saturday, with the election on Tuesday, it might 
not get there in time, so as a fail-safe, go down and vote a 
provisional ballot. So the first reason why people were asked 
to vote provisionals was they had already been mailed a live 
early ballot.
    Senator Durbin. So did you detect any trends in terms of 
this instance where people were given a provisional ballot 
based on being sent an early ballot? I mean, were there more 
whites, more blacks, more Hispanics, more women, more men?
    Mr. Bennett. No. In fact, our largest county, Maricopa 
County, around the Phoenix metropolitan area--I should probably 
have provided you with a wonderful map that they did that 
identifies the Hispanic surname voters in the precincts 
throughout Maricopa County, and the higher percentages are a 
darker color. And then they have done an evaluation already of 
where did the provisional ballots come in. And the provision 
ballots are scattered all throughout the county.
    Senator Durbin. So the largest or the most dominant reason 
for issuance of provisional ballots appeared to be across the 
board, affecting everybody.
    Mr. Bennett. Yes, absolutely.
    Senator Durbin. That is why I wanted to ask you this 
question, because you spoke about Maricopa County in your 
testimony here. Statewide in Arizona, in the 2012 election, 
172,000 provisional ballots, roughly, were cast. That is 7.4 
percent of the total number of ballots cast. More than two-
thirds of the provisional ballots cast statewide, however, were 
cast in Maricopa County, where a large number of Arizona's 
minority voters reside. Nineteen percent of all provisional 
ballots in the State were rejected and not counted.
    According to an analysis by the Arizona Capitol Times, 
Maricopa County voters living in precincts with higher 
percentages of minorities had a greater chance of casting 
provisional ballots in the November 6th election. Eighty-two 
percent of the voters in the Holly precinct, north of Phoenix, 
are minorities. In that precinct, 18.5 percent of all ballots 
cast were provisional. In Tempe's Hudson precinct, where 43 
percent of the residents are minorities, 32 percent of all 
ballots cast were provisional.
    Can you explain why voters in Arizona's predominantly 
minority precincts were so much more likely to receive and cast 
provisional ballots that may ultimately not be counted?
    Mr. Bennett. First of all, Senator, the data that you are 
referring to in the Capitol Times article is not data that I 
have heard from the counties themselves. What I did glean from 
the meeting that I referred to with the two Hispanic voter 
registration groups, one of them admitted that of the 34,000 
Latino voters that they registered within the last few weeks or 
a month or two before the election, on many of those voter 
registration forms, the voter themselves had not checked the 
box to be on what is called the Permanent Early Voter List and 
receive their ballot by mail.
    For the purposes of the organization that was pushing the 
drive, I was frankly a bit surprised that they admitted to me 
that the organization officials had checked a box on the voter 
registration form that the voter may not have known had been 
checked by the group that they gave it to, which caused a 
ballot to be mailed to those folks, and they were thinking, ``I 
am going to go to the polls and vote.'' Then a ballot shows up. 
Perhaps they thought it was a sample ballot or whatever. So 
there was at least some anecdotal evidence of these groups that 
registered large Latino voters----
    Senator Durbin. I understand that, but what you said 
earlier was when you looked at provisional ballots, they were 
across the board; but what the statistics show is that 
provisional ballots were more likely in the minority 
precincts----
    Mr. Bennett. I do not think statistically that is correct, 
Senator. I think they could find, as I think that article 
indicates, that of the darker blue--the color that they used on 
these maps. Of the darker blue precincts that had a higher 
percentage of minorities or Hispanic surname registered voters, 
I am sure some of those precincts did have higher percentages 
maybe than the average. But when you look at the map of where 
the provisional ballots came in from across the county, they 
were scattered throughout the county, came from some of our--I 
personally sat at a table with a volunteer and processed a 
large group of provisional ballots from one of our 
predominantly non-minority precincts. And so I would 
respectfully suggest that they might be picking one or two 
precincts that correlate between high voter registration--or 
high minority registration and high provisional ballots. But 
there were as many or more precincts that did not, that had low 
minority percentages.
    Senator Durbin. So we will take a look at that and perhaps 
compare some statistics.
    Mr. Bennett. Thank you.
    Senator Durbin. I want to thank this panel, and I want to 
thank all of you who have followed this hearing today. The 
obvious question is: The election is over. Why are you 
concerned about it? And we are concerned about it for something 
very basic stated by our courts. The Supreme Court said the 
right to vote is indeed ``preservative of other basic civil and 
political rights.'' I remember when that question was asked I 
think of every Supreme Court nominee if they understood how 
important this one right was. And, in fact, they all testified 
that they did, and we should not forget it.
    So we have a lot of organizations that want to put written 
statements in the record: Leadership Conference on Civil and 
Human Rights, Lawyers Committee for Civil Rights, Center for 
American Progress, African American Ministers Leadership 
Council, the American Civil Liberties Union, and DEMOS. Without 
objection, the statements will be put in the record. No 
objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Durbin. The hearing record will be held open for 1 
week for additional statements. Written questions may be sent 
your way to the witnesses at the close of business. We hope 
that 1 week from today you will spend Christmas Eve and 
Christmas Day completing the questionnaire and get them back to 
us. We will ask the witnesses to respond promptly so we can 
complete the record. And if there are no further comments from 
our panel or my colleagues, I thank the witnesses for attending 
and colleagues for participating.
    The hearing stands adjourned.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T1713.001

[GRAPHIC] [TIFF OMITTED] T1713.002

[GRAPHIC] [TIFF OMITTED] T1713.003

[GRAPHIC] [TIFF OMITTED] T1713.004

[GRAPHIC] [TIFF OMITTED] T1713.005

[GRAPHIC] [TIFF OMITTED] T1713.006

[GRAPHIC] [TIFF OMITTED] T1713.007

[GRAPHIC] [TIFF OMITTED] T1713.008

[GRAPHIC] [TIFF OMITTED] T1713.009

[GRAPHIC] [TIFF OMITTED] T1713.010

[GRAPHIC] [TIFF OMITTED] T1713.011

[GRAPHIC] [TIFF OMITTED] T1713.012

[GRAPHIC] [TIFF OMITTED] T1713.013

[GRAPHIC] [TIFF OMITTED] T1713.014

[GRAPHIC] [TIFF OMITTED] T1713.015

[GRAPHIC] [TIFF OMITTED] T1713.016

[GRAPHIC] [TIFF OMITTED] T1713.017

[GRAPHIC] [TIFF OMITTED] T1713.018

[GRAPHIC] [TIFF OMITTED] T1713.019

[GRAPHIC] [TIFF OMITTED] T1713.020

[GRAPHIC] [TIFF OMITTED] T1713.021

[GRAPHIC] [TIFF OMITTED] T1713.022

[GRAPHIC] [TIFF OMITTED] T1713.023

[GRAPHIC] [TIFF OMITTED] T1713.024

[GRAPHIC] [TIFF OMITTED] T1713.025

[GRAPHIC] [TIFF OMITTED] T1713.026

[GRAPHIC] [TIFF OMITTED] T1713.027

[GRAPHIC] [TIFF OMITTED] T1713.028

[GRAPHIC] [TIFF OMITTED] T1713.029

[GRAPHIC] [TIFF OMITTED] T1713.030

[GRAPHIC] [TIFF OMITTED] T1713.031

[GRAPHIC] [TIFF OMITTED] T1713.032

[GRAPHIC] [TIFF OMITTED] T1713.033

[GRAPHIC] [TIFF OMITTED] T1713.034

[GRAPHIC] [TIFF OMITTED] T1713.035

[GRAPHIC] [TIFF OMITTED] T1713.036

[GRAPHIC] [TIFF OMITTED] T1713.037

[GRAPHIC] [TIFF OMITTED] T1713.038

[GRAPHIC] [TIFF OMITTED] T1713.039

[GRAPHIC] [TIFF OMITTED] T1713.040

[GRAPHIC] [TIFF OMITTED] T1713.041

[GRAPHIC] [TIFF OMITTED] T1713.042

[GRAPHIC] [TIFF OMITTED] T1713.043

[GRAPHIC] [TIFF OMITTED] T1713.044

[GRAPHIC] [TIFF OMITTED] T1713.045

[GRAPHIC] [TIFF OMITTED] T1713.046

[GRAPHIC] [TIFF OMITTED] T1713.047

[GRAPHIC] [TIFF OMITTED] T1713.048

[GRAPHIC] [TIFF OMITTED] T1713.049

[GRAPHIC] [TIFF OMITTED] T1713.050

[GRAPHIC] [TIFF OMITTED] T1713.051

[GRAPHIC] [TIFF OMITTED] T1713.052

[GRAPHIC] [TIFF OMITTED] T1713.053

[GRAPHIC] [TIFF OMITTED] T1713.054

[GRAPHIC] [TIFF OMITTED] T1713.055

[GRAPHIC] [TIFF OMITTED] T1713.056

[GRAPHIC] [TIFF OMITTED] T1713.057

[GRAPHIC] [TIFF OMITTED] T1713.058

[GRAPHIC] [TIFF OMITTED] T1713.059

[GRAPHIC] [TIFF OMITTED] T1713.060

[GRAPHIC] [TIFF OMITTED] T1713.061

[GRAPHIC] [TIFF OMITTED] T1713.062

[GRAPHIC] [TIFF OMITTED] T1713.063

[GRAPHIC] [TIFF OMITTED] T1713.064

[GRAPHIC] [TIFF OMITTED] T1713.065

[GRAPHIC] [TIFF OMITTED] T1713.066

[GRAPHIC] [TIFF OMITTED] T1713.067

[GRAPHIC] [TIFF OMITTED] T1713.068

[GRAPHIC] [TIFF OMITTED] T1713.069

[GRAPHIC] [TIFF OMITTED] T1713.070

[GRAPHIC] [TIFF OMITTED] T1713.071

[GRAPHIC] [TIFF OMITTED] T1713.072

[GRAPHIC] [TIFF OMITTED] T1713.073

[GRAPHIC] [TIFF OMITTED] T1713.074

[GRAPHIC] [TIFF OMITTED] T1713.075

[GRAPHIC] [TIFF OMITTED] T1713.076

[GRAPHIC] [TIFF OMITTED] T1713.077

[GRAPHIC] [TIFF OMITTED] T1713.078

[GRAPHIC] [TIFF OMITTED] T1713.079

[GRAPHIC] [TIFF OMITTED] T1713.080

[GRAPHIC] [TIFF OMITTED] T1713.081

[GRAPHIC] [TIFF OMITTED] T1713.082

[GRAPHIC] [TIFF OMITTED] T1713.083

[GRAPHIC] [TIFF OMITTED] T1713.084

[GRAPHIC] [TIFF OMITTED] T1713.085

[GRAPHIC] [TIFF OMITTED] T1713.086

[GRAPHIC] [TIFF OMITTED] T1713.087

[GRAPHIC] [TIFF OMITTED] T1713.088

[GRAPHIC] [TIFF OMITTED] T1713.089

[GRAPHIC] [TIFF OMITTED] T1713.090

[GRAPHIC] [TIFF OMITTED] T1713.091

[GRAPHIC] [TIFF OMITTED] T1713.092

[GRAPHIC] [TIFF OMITTED] T1713.093

[GRAPHIC] [TIFF OMITTED] T1713.094

[GRAPHIC] [TIFF OMITTED] T1713.095

[GRAPHIC] [TIFF OMITTED] T1713.096

[GRAPHIC] [TIFF OMITTED] T1713.097

[GRAPHIC] [TIFF OMITTED] T1713.098

[GRAPHIC] [TIFF OMITTED] T1713.099

[GRAPHIC] [TIFF OMITTED] T1713.100

[GRAPHIC] [TIFF OMITTED] T1713.101

[GRAPHIC] [TIFF OMITTED] T1713.102

[GRAPHIC] [TIFF OMITTED] T1713.103

[GRAPHIC] [TIFF OMITTED] T1713.104

[GRAPHIC] [TIFF OMITTED] T1713.105

[GRAPHIC] [TIFF OMITTED] T1713.106

[GRAPHIC] [TIFF OMITTED] T1713.107

[GRAPHIC] [TIFF OMITTED] T1713.108

[GRAPHIC] [TIFF OMITTED] T1713.109

[GRAPHIC] [TIFF OMITTED] T1713.110

[GRAPHIC] [TIFF OMITTED] T1713.111

[GRAPHIC] [TIFF OMITTED] T1713.112

[GRAPHIC] [TIFF OMITTED] T1713.113

[GRAPHIC] [TIFF OMITTED] T1713.114

[GRAPHIC] [TIFF OMITTED] T1713.115

[GRAPHIC] [TIFF OMITTED] T1713.116

[GRAPHIC] [TIFF OMITTED] T1713.117

[GRAPHIC] [TIFF OMITTED] T1713.118

[GRAPHIC] [TIFF OMITTED] T1713.119

[GRAPHIC] [TIFF OMITTED] T1713.120

[GRAPHIC] [TIFF OMITTED] T1713.121

[GRAPHIC] [TIFF OMITTED] T1713.122

[GRAPHIC] [TIFF OMITTED] T1713.123

[GRAPHIC] [TIFF OMITTED] T1713.124

[GRAPHIC] [TIFF OMITTED] T1713.125

[GRAPHIC] [TIFF OMITTED] T1713.126

[GRAPHIC] [TIFF OMITTED] T1713.127

[GRAPHIC] [TIFF OMITTED] T1713.128

[GRAPHIC] [TIFF OMITTED] T1713.129

[GRAPHIC] [TIFF OMITTED] T1713.130

[GRAPHIC] [TIFF OMITTED] T1713.131

[GRAPHIC] [TIFF OMITTED] T1713.132

[GRAPHIC] [TIFF OMITTED] T1713.133

[GRAPHIC] [TIFF OMITTED] T1713.134

[GRAPHIC] [TIFF OMITTED] T1713.135

[GRAPHIC] [TIFF OMITTED] T1713.136

[GRAPHIC] [TIFF OMITTED] T1713.137

[GRAPHIC] [TIFF OMITTED] T1713.138

[GRAPHIC] [TIFF OMITTED] T1713.139

[GRAPHIC] [TIFF OMITTED] T1713.140

[GRAPHIC] [TIFF OMITTED] T1713.141

[GRAPHIC] [TIFF OMITTED] T1713.142

[GRAPHIC] [TIFF OMITTED] T1713.143

[GRAPHIC] [TIFF OMITTED] T1713.144

[GRAPHIC] [TIFF OMITTED] T1713.145

[GRAPHIC] [TIFF OMITTED] T1713.146

[GRAPHIC] [TIFF OMITTED] T1713.147

[GRAPHIC] [TIFF OMITTED] T1713.148

[GRAPHIC] [TIFF OMITTED] T1713.149

[GRAPHIC] [TIFF OMITTED] T1713.150

[GRAPHIC] [TIFF OMITTED] T1713.151

[GRAPHIC] [TIFF OMITTED] T1713.152

[GRAPHIC] [TIFF OMITTED] T1713.153

[GRAPHIC] [TIFF OMITTED] T1713.154

[GRAPHIC] [TIFF OMITTED] T1713.155

[GRAPHIC] [TIFF OMITTED] T1713.156

[GRAPHIC] [TIFF OMITTED] T1713.157

[GRAPHIC] [TIFF OMITTED] T1713.158

[GRAPHIC] [TIFF OMITTED] T1713.159

[GRAPHIC] [TIFF OMITTED] T1713.160

[GRAPHIC] [TIFF OMITTED] T1713.161

[GRAPHIC] [TIFF OMITTED] T1713.162

[GRAPHIC] [TIFF OMITTED] T1713.163

[GRAPHIC] [TIFF OMITTED] T1713.164

[GRAPHIC] [TIFF OMITTED] T1713.165

[GRAPHIC] [TIFF OMITTED] T1713.166

[GRAPHIC] [TIFF OMITTED] T1713.167

[GRAPHIC] [TIFF OMITTED] T1713.168

[GRAPHIC] [TIFF OMITTED] T1713.169

[GRAPHIC] [TIFF OMITTED] T1713.170

[GRAPHIC] [TIFF OMITTED] T1713.171

[GRAPHIC] [TIFF OMITTED] T1713.172

[GRAPHIC] [TIFF OMITTED] T1713.173

[GRAPHIC] [TIFF OMITTED] T1713.174

[GRAPHIC] [TIFF OMITTED] T1713.175

[GRAPHIC] [TIFF OMITTED] T1713.176

[GRAPHIC] [TIFF OMITTED] T1713.177

[GRAPHIC] [TIFF OMITTED] T1713.178

[GRAPHIC] [TIFF OMITTED] T1713.179

[GRAPHIC] [TIFF OMITTED] T1713.180

[GRAPHIC] [TIFF OMITTED] T1713.181

[GRAPHIC] [TIFF OMITTED] T1713.182

[GRAPHIC] [TIFF OMITTED] T1713.183

[GRAPHIC] [TIFF OMITTED] T1713.184

[GRAPHIC] [TIFF OMITTED] T1713.185

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
